Department of Health and Human Services

        OFFICE OF
    NSPECTOR GENERAL




LIMITS ON BENEFICIARY FINANCIAL
             LIABILITY
        (BAIANCE BILLING)




               APRIL 1993
                      OFFICE OF INSPECrOR                GENHWL

The mission of the Office of Inspector General (OIG), as mandated by Public bw 95452. .as
amended, is to protect the integrity of the Dcpxtmcnt of Health and Human Scmticcs’ (HHS)
programs as WCIIas the health and welfare of bcncficianes served by those programs. This
statuto~ mission is carrjcd OUt through a nationuidc nc:work of’ audits, investigations, and
inspections conducted by three OIG operating componcntx the OKKC of Audit Sc~iccs. the
OffiCCof Investigations, and the Office of Evaluation and Inspections. _rhc O]G also informs
the Sccrctary of HHS of program, and management problems, and recommends courses to
correct thcm.

                         OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Semites (OAS) provides an auditing sem”ces for HHS, either by
conducting audits ~tith its oum audit resourczs or by overseeing audit work done by others.
.Audits examine the performance of HHS programs and/or its grantees and contractors in
carrjing out their respective rcsponsl%ilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efflcierq throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Offke of Investigations (01) conducts crimina~ ci@ and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                  AND INSPECHONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficienq, vulnerability,
and effectiveness of departmental programs. This report was prepared in the New York
regional office under the direction of Thomas F. Tully, Regional Inspector General and Alan
S. Meyer, Deputy Regional Inspector GeneraL Project stafE

REGION II                                    HEADQUARTERS
Joseph M. Benlioski, Project Leader          Wayne Powell
Joseph J.Corso, Jr., Project Leader          Brian P. Ritchie
Lucille M. Cop                               Barbara R Tedesco
William J. Counihan

For additional copies of this report, contact the New York regional office at 21U264-1998.
Department of Health and Human Services

         OFFICE OF
   INSPECTOR GENERAL




LIMITS ON BENEFICIARY FINANCIAL
            LIABILITY
        (BALANCE BILLING)




           APRIL 1993   OEI-02-92-00130
              EXECUTIVE                         SUMMARY

PURPOSE

To repoti on Medicare earners’ implementation     of limits on physicians’ charges to
beneficiaries.

BACKGROUND

Con~essional interest in limiting beneficiary financial liability for physician semices
beg~n with the establishmen~ in 1984, of the Participating Physician Program. In
return for payment incentives, participating physicians must accept assignment of
Medicare’s approved amount as payment in full in all cases; non-participants may
accept assignment on a case-by-case basis. About 19 percent of all claims are
unassigned, representing 13 percent of allowed physician charges, or $5.7 billion, in
1990.

Provisions of OBIU 1989, effective Januaxy 1991, Iimited beneficiary responsibility for
amounts physicians charged in excess of the amount allowed by Medicare. These
provisions precluded physicians who did not accept assignment in 1991 from charging
beneficiaries more than 12S percent of Medicare’s allowed amounts for medical
procedures, and more than 140 percent of allowed amounts for evaluation and
management services. This new system, called ‘limiting chafg~n is also frequently
referred to as “Balance BiIling.” In administering these restrictions, ~ers  monitor a
sample of procedures and senkes for all physicians’ unassigned claims for the first
and second half of each year. When the cumulative amount of potential excessive
charges on individual claims in the 6-month sample period exceeds $300, a notice is
sent to the physician ident@ing all such charges Should potential violations be
confirme~ physicians are intensively monitored. If physicians continue to violate
charge limits, they may be referred for civil monetary penalty or exclusion proceedings.

We collected data on monitoring activities from all carriers for the two monitoring
periods in 1991. We also interviewe~ either by telephone or in person, staff from a
sample of twelve Medicare earners. Case files were reviewed at six earners we visited.

FINDINGS

Data Supplied By Carriers Ixxiicated That The Extent Of Excessive Charges By
Physicians Appeared I&nited

Potential physician violations represented only four percent of all physicians submitting
unassigned claims. Overcharges and beneficiaries each represented one percent or
lCSSof the total submitwd charges on unassigned claims and of the total Medicare
population.

Initiatives Of some Carriers Helped To Rdua      The Fmcia.1       Impact On Some
Bencficiark

Some camiers asked physicians to make refunds to beneficiaries, although this was not
required by HCFA in 1991. Sixteen carriers, who accounted for 60 percent of all
physicians receiving initial notices for 1991, repofi always requesting refunds.

All Mti”earc Carriers Implemented Required Monitoring Of limits On Physicians’
Charges In 1991; Hcnwxer, Some Did So More Intensively Than Others

Carriers’ monitoring procedures for physicians who received initial notices of limiting
charge violations differed in the manner of intensive monitoring.— This resulted in
physicians not being not~ed on a timely basis to correct their charging practices to fall
within the charge limits, and prevented beneficiaries ffom receiving prompt refunds.

HCFA’S Educational    EfYo~ Focused On Physicians And Gave Ve~ Little Attention
To Beneficiaries

Carner education on limiting charges focused almost exclusively on physicians, in an
attempt to reduce charge violations at their source. A review of E@anation    of
Medicare Benefits (EOMB) forms for 1991 from 12 sample earners showed that they
misstated the amount that the beneficiary was responsl%le for payin~
                                                               .
RECOMMENDA~ONS

Our recommendations      take into account that during the course of this study HCFA
(1) had instructed earners to request physicians to make refunds to beneficiaries in
those cases where charges exceeded Medicare l.imi~, (2) had implemented plans to
revise EOMBS to provide beneficiaries with the neeessa~ information to detect
excessive charges, and (3) developed instructions on development and disposition of
intensively monitored cases Also, legislation had been introduced in the Congress
requiring physicians to refund beneficiaries any amounts found to be in excess of
billing limits. The legislation was not enacteq but has been reintroduced in the
current session of Congress.

We support these efforts, and in addition, recommend    that HCF&

1.     Contact those carriers who never notified physicians to voluntarily refund or
       credit beneficiaries based on 1991 violations found through monitorin~ and
       request that they send one notice to those physicians to make refunds to, or
       credit the accounts o~ those benefickks     previously identified.




                                            ii
      Support legislation requiring physicians to make refunds to beneficiaries   for
      amounts collected in accss of charge limits


COMMENTS

~~’ereceived comments from the Health Care Financing Administration (HCFA) and
from the Assistant Secretary for Planning and Evaluation (ASPE). Both disagree wi[h
our recommendation to now contact physicians who had not been requested to make
refunds to beneficiaries for 1991 charge Violations. Their reason is that there is no
statuto~ authority requiring physicians to make such refunds.

Also, HCFA believes that it would be inappropriate to take the recommended action
on a retroactive basis since at the time the violations were identified, it did not think
that it had authority to instinct carriers to request physicians to make refunds. The
ASPE states that “Congress enacted a different system of Iixnits on balance billing by
physicians since approtiately      1984, called Maximum Allowable Charges or MAACS.
The OIG’S recommendation        singles out only those beneficiaries who were overcharged
by the new limiting charge system enacted for 1991.”

Additionally, HCFA indicates that it has taken action regarding those beneficiaries
who may have been charged more than the 1991 charge limits. The HCFA notes that
leaflets describing the Medicare limiting charge were distributed to beneficiaries
through Social Security Administration district offices HCFA regional offices, and
national beneficiary organizations. These leaflets advise beneficiaries to contact their
Medicar& carriers if they believe they had been overcharged for physician sefices in
1991. The HCFA states that it has instructed carriers to assist beneficiaries in
dete rmining whether violations occurred and in contacting physicians to request
refunds.

OIG RESPONSE

We understand that current law does not require physicians to make refunds and are
only recommending that HCFA issue notices to physicians requesting that they
voluntarily make refunds. We believe that many physicians will do so once notified of
the overcharges. We have clarified our recommendation to reflect our inten~ which is
to seek fair and equitable treatment for those beneficiaries semiced by those carriers
which did not make such requests of physicians.

We recognize and appreciate HCFA’S concern about retrospective actions. However,
we believe that these actions can be taken with a minimum of effort and cost. Our
study confirmed that just over half of the earners always or sometimes requested
refunds or adjustments.     However, there were 26 earners who never requested refunds
or adjustments of beneficiary accounts from a total of 3,170 physicians found in
\tiolation of charge limits. That represents less than 20 percent of the total physician
vio]ators. Only these physicians need be sent a letter requesting a refund or an

                                             ...
                                             111
         adjustment of beneficiaries’               accounts                            This action would assure equal treatment                                                       to all
         overcharged beneficiaries.

         We commend HCFA’S initiative to remedy the unequal treatment bcncficiarics
         received in obtaining tier     assistance in ‘obtaining refunds for overcharges in 1991.
         Neverthel~     wc bdicvc that it falls short of remedying the unequal treatment
         beneficiaries rcceive~ the burden for identifjhg and correcting overcharges should
         not be placed on beneficiaries     Also, this remedy is Iimited to only those beneficiaries
         who re&ivcd and acted upon the information in the leafle~

         As the MAAC provision on physician charges was not within the scope of this study,
         we arc not able to comment on ASPE’S obsemation regarding overcharges during the
                                                �

         MC      program

         The HCFA also provided general and technical comments on the draft report which
         we have incorpo~ated in h-is report as appropriate. Comments horn ASPE and
         HCFA arc included in Appendix A.




                                                                                                                                                                                                   -.       ....-




                                                                                  . .                          .-
                     %+---   --------       -                                                                     ..
     .                                                     . .
                                                                 ------
                                                                                  .“.
                                                                                                       ,..
                                                                                                       .-._.--.7_-
-.
         —
                --
                                                                              .     .        .
                             .-.        .            .:-                  ,----      .— --------    .-.-- -----
                                                                                  ..
                                                                               ... .  . .           . . .
                                                                                                      ------                          . . .. .’.- .-*                -
                                                                                                                       “.                . . . . .+-+
                                                                                                                                                    -+              .-. ..
                                                                                                                 .                      -..a­
                                                                                                                                                   -....:

                                                                                                                                                  . ..                       -------     .-----,           >A.-*’
                                                                                                                                                                                                               ..:-        4     .   ..   .   .       .


                                                                                                                                         --                                                         .>-)        .!   .-:       .&.                .




                                                                                                                                            . .
                                                                                                           .-”
                                                                                                                                            ; ,;-----
                                                                                                      --
                                                                                                                                            - ‘- .--: ‘--,-
                                                                                                                                                .“ ;,       :-:
                                                                                                                                                               .-




                                                                                                                 —             --- . ...-- --,
                                                            .             .                                      . .        . .. . --_’ -..-.. -.--
                                                                                                                                                 ..—.
                                                                                                                                        ----




                                                                                                                                                                                                               -.,


                                                                                                                                           ...-.
                                                                                                                                   ------ ___
                                                                                                                                        --—.
                                                                                                                                                                                                        .. .               --




                                                                                             .
                                                                                             iv
                    TABLE                                  OF CONTENTS

ExEcuTrvE      SUMMARY




INTRODUCTION        . . . ...*.             �   *O*...*                                  . . . . . . . . . . . . . . . . . . . ...00                                                                                                              00 -0----                           �       1




FINDINGS     .......    . . . .   ...0            .    .   .       .       .        .    .    .   .   .   .   .       .       .       .       .       .       .       .       .       .       .       .       .          .*   .   ...-*                      �   --.0=.                       4

    Extent Of Charge Violations                        ......................... ..........                                                                                                                                                                                           .. 4

    Refunds To Beneficiaries                -* --.*-.                                        .0 ..00.0                                . . . . . . . . . . . . . . . . 9..0000-                                                                                                         *5

    Camier Monitoring     Of Physicians                                        .............................. .....

    Physician And                               Education                                         ................... ....... .... ..


        8




    Comments    ........      �    .**.9.                      m       9       *..*...                            .       .       .       .       .       .       .       .       .       .       .       .       ...*             .      .   .   .   ...*                .   .   .       .   8




APPENDIX

&   CommentsO nD raftReport.                          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .A-l
                         INTRODUCTION


PURPOSE

To report on Medicare carriers’ implementation    of limits on physicians’ charges to
beneficiaries.

BACKGROUND

Since the inception of Medicare, physicians have been given the option to receive
payment directly from Medicare on an assigned basis or to be paid by the beneficiary
on an unassigned basis. Assignment is an agreement by a physician to accept

Medicare’s allowed amount as payment in full. The physician accepting assignment of

a Medicare claim receives 80 percent of the allowed amoun~ and biIls the beneficia~

for only the remaining 20 percent (coinsurance). When assignment is not accepted,

the beneficiary is respons]%le for paying the physician. Medicare pays the beneficiary

80 percent of the Medicare-approved     amount for the semice.


Until recent years, when assignment was not accepte~ a physician could charge the

beneficiary more than Medicare’s approved amount without any restrictions.

Medicare would pay 80 percent of its allowed amoun~ and the beneficiary would be

responsl%le for the full balance of the amount billed by the physician. Cunently,

however, when assignment is not accepted a physician may charge no more than a

specified percentage above an allowable amount established by Medicare. This limit

on the Mount of the physician’s charge is referred to as the limiting charge.”


This inspection focused on unassigned claims in 1991 subject to Medicare’s charge

Iimits. About 19 percent of all claims are unassigned. In 1990, they represented

approximately 13 percent of physicians’ allowed charges, or about $5.7 billion.


L+@ztive   Hutay


Congressional interest in limiting beneficiary liabiIity for physician services began with

the passage of the Deficit Reduction Act of 1984. It established a Medicare Physician

Participation Program designed to provide physicians with incentives to accept

assignment on claims for all senkes rendered. Participating physicians agree to

accept assignment on all claims for sewices furnished during &e year. Physicians who

do not participate may decide on a case-by-case basis whether to accept or not accept

assignment.


Since 1984, several laws have been enacted which placed limits on the amounts

nonparticipating physicians were allowed to charge beneficiaries. The OBW of 1986

provided for limits on the actual charges that could be made by nonparticipating

physicians, Imown as Maximum Allowable Actual Charge (MAAC) limits.

These provisions were replaced, effective January 1991, by a new system of limits,
known as limiting charges, resulting from OBW 1989. This new s}~tem is also
frequently referred to as ‘*Balance Billing.” For 1991, physicians not accepting
assignment could charge no more than 125 percent of Medicare’s allowed amounts for
medical procedures and, as required by OBW 1990, 140 percent of established
amounts for evaluation and management semices.

Cuti   Monitohg    of Nonpa@pahg       Physicians

The Mcdicarc Carriers Manual, section 7555.1, required earners to monitor a sample
of each non~articinating physician’s charges for the first and second half of each year.
(Due to delays experienced by earners in calculating limiting charges and notifjing
physicians of them the first monitoring period in 1991 was March through June; the
first complete 6-month period began in July). The sample consisted of the 10 most
common procedures performed in the physician’s specialty. When the cumulative
amount of potential excessive charges billed in the sample period exceeds $300, a
notice is sent to the physician identi&ing all procedures and related charges. The $300
threshold may consist of a single procedure or multiple procedures with at least $1 in
potentiaI excessive charges. Physicians are asked to review the information and noti$
the earner of charges they believe are not excessive or which were submitted in emor.
If the cam”er finds that “excess charges” are adequately explaine~ the physician is not
considered in violation. The initial notification also states that a special follow-up
review of charges will be conducted to examine whether the physician’s charging
practices have been corrected to be within the charge limits. If charges continue to
violate the limi~ the matter may be referred for possl%le civil monetary penalty or
exclusion’ proceedings.

The carrier follow-up review of physicians who have not satisfactorily explained
excessive charges, known as “intensified monitoring,” is conducted over a three- to six-
month penocL Should violations continue to occur, the earner sends a second notice
requesting an explanation. It indicates that charges not adequately explained will be
considered as violations of OBW limits, and that continued violations may result in
referral for civil monetary penalty or exclusion proceedings.

B enejkhy   Ihqu.i&s   On   Chuqp

If a earner receives a beneficiary complaint on a potential charge limit violation    and
finds the complaint has meri$ it sends a notification letter to the physician, even   if the
$300 threshold level has not been reached. Many of these complaints are made          after
beneficiaries are notified of physicians’ charges by carriers on Explanation Of
Medicare Benefits (EOMB) forms. During 1991, these EOMBS also contained
information on Medicare approved charges on the amount of Medicare payment             and
on the beneficiary’s responsl%ility for the balance of the physician’s charge.




                                             2
MErHoDomGY

At our requcsh all 56 tiers      provided documentation on their monitoring activities
and on their handling of beneficiary complaints for the first monitoring period. They
also provided early information of a similar nature on the second monitoring period
(just beginning at the time of our data collection). Data included: (1) the total
number of physicians sent initial notices of potential charge limit violations; (2) the
total number of beneficiaries involved; and (3) the total related excessive charges.
While aIl carriers provided information, the number of responses to each of our
questions vanex ranging from 39 to 56. Some carriers reported that ccflain
information was not available; thus, the data rcpofled in our findings do not represent
the full ex~ent of violations, excessive charges or number of beneficiaries involved.

For the purpose of vcri&ing earners’ monitoring activities and seeing if there were any
variations in implementation, we divided carriers into three groups. These groups
were based    upon the size of the beneficiary populations they seine: (1) more than 11
milliorq (2) between three and 11 million; and (3) less than 3 million. We randomly
selected 12 carriers (four from each group). From them we obtained and analyzed
documents regarding monitoring procedures, beneficiary and physician
comespondence, HCFA instmctions to carriers, and EOMB forms Their educational
activities with physician and beneficiary organizations were also reviewed.

We intefiewed      staff at six of the 12 sample earners by telephone (at least one from
each group) regarding their monitoring procedures and experiences. At the remaining
six carriers (at least one in each group) we made site visits. The six carriers were
purposively selected to provide a geographic distribution of different size carriers. At
these site% we reviewed a total of 221 physicians who had violated charge limk         We
abstracted and recorded data to veri~ aspects of the monitoring process including
intensified monitoring. We also reviewed carriers’ handling of complaints. We
specifically identified excessive charges for approximately 20,000 procedures billed in
the 221 violation case% and placed them into six groups by amounts ranging from $1
to more than $100.

We also called physicians to determine whether they made refunds to or credited
accounts of 36 beneficiaries identified through the case reviews as having been
overcharged $100 or more. When physicians indicated that they had made refunds or
credited accounts, we requested documentation to that affect. In these cases there
was no indication that carriers had requested that physicians make refunds.

 Lastly, we asked several beneficiary and physician advocq        organizations   about their
 dealings with carriers and beneficiaries on Iirniting charges.




                                               .
                                FINDINGS

DATA SUPPLIED BY CARNERS  INDICATED THAT THE EXI’ENT                          OF
EXCESSIVE CHARGES BY PHYSICIANS APPEARED LIMITED

I&nfiJi  pdatid    viohioru mpmwnkd  0+       a SM.U fmcdora of d chaqps submitld       on
unussignd clainq   canit7s’ -    g pbti         accod    for some of these idenfi!i
Vidafwns

For the two 1991 monitoring peno~      49 carriers in the first monitoring period and 46
earners in the second period repotied identifying potential overcharges by
nonparticipating physicians of about $11 million. This total represented far less than 1
percent of total unassigned submitted charges. It involved approximately 343,000
beneficiaries, or about 1 percent of the total Medicare population. The average
excessive charge per overcharged beneficiary was approximately $32.

It should be noted that the above data is not a complete picture of the extent of
excessive charges to beneficiaries. Any violations which may have occurred during the
first two months of 1991 and any physicians’ excessive charges which did not total $300
are not included

For the same perio~ 55 earners in the first monitoring period and 52 in the second
period reported identifying 16,284 non-participating physicians whose cumulative
potential overcharges on aIl unassigned claims were $300 or”more These physicians
represented four percent of the 389,399 non-participating physicians who submitted
unassigned claims to 52 carriers.

Other data reported by 54 carriers horn the first monitoring period further suggest the
relatively small percentage of potential physician violations. Carriers resolved 65
percent (5,919) of 9,122 potential violations they identified without needing to send
second notices to physicians. Of these resolution% nearly 40 percent (~166) of the
potential violations were caused by technical problems and not physician errors. In
these cases, earners inappropriately cited physicians with vio~tions for a variety of
reasons, although, in many instances, potential overcharges did occur. The most
frequently cited reasons were: (1) earner recoding of semices which lowered limiting
charges; (2) monitoring staff using different charge levels than those given to
physicians; (3) not sending correct charge limits to physicians before the period being
monitored; (4) miscoding multiple semices as one semice; and (5) using incorrect
physician specialty or locality information.

 A review of 221 physician violation case files at the six visited earners revealed that
 the amounts of excessive charges per procedure were small. Eighty-nine percent of
 excessive charges were $x or less, for the near]y ~(),()()() procedures  rendered between



                                             4
\farch and June 1991. The balance included five percent in the S26 to S50 range, and
six percent over $50.

INITIATIVES OF SOME QWRIERS               HELPED      REDUCE      THE FrNANCIAL
IMPA~ ON SOME BENEFICIARY

Some cati     on their own rqzuzstd   that phpkiaru   malz   rejhds   to bcncjlcian”m

For the first and second monitoring periods, some carriers report requesting physicians
to make refunds or adjustments, although they were not required by HCFA to do so.
A review of files at six earners confirmed this activity.

Regarding excessive charges identified by monitoring, 29 percent of carriers (16) say
they always made such requests, 46 percent (26) repoti they never made such
requests, and 25 percent (14) sometimes made them.

The sixteen carriers who report always requesting refunds or credits made such
requests of 9,614 physicians in their semice area. These physicians accounted for
nearly 60 percent of all those receiving initial notices for the ~o 1991 monitoring
periods. They rendered sefices to 46 percent of the beneficiaries who were
potentially overcharged. Their excessive charges were approximately $4 million in
1991.

halysis of the biIls from 221 physician-cases reviewed at the six earners we visited
(tWO always requested physicians to make refunds and four sometimes did so) showed
that for 73 percent of the 13,579 beneficiaries overcharge    their physicians were
requested by carriers to refund or credit beneficiary accounts, or had voluntarily done
so. However, we did ident@ 36 beneficiaries who were overcharged horn $122 to
$1,359. Her      records did not indicate that requests for refunds or adjustments had
been made. Documents we later obtained horn physicians conf~ed           that refunds or
adjustments were made for seven of the 36 beneficim”es, amounting to $2,801.
However, no refunds or adjustments had been made in the remaining 29 cases,
representing total potential overcharges of $14,898.

There is no legal requirement that physicians make refunds to beneficiaries, even
when excessive charges are identtied.     The limiting charge legislation, section lW8(g)
of the Social Security Ac~ provides only that physicians may be sanctioned for
knowingly, willfully and repeatedly billing in violation of the charge limitation.
However, the law is silent as to the extent of beneficiaries’ responsibility for excessive
charges. Thus, beneficiaries lacked off]cial recourse to obtain refimds from physicians.

 [Note: In March 199A HCFA instructed cam”ers to revise their intensive monitoring
 follow-up notices to advise physicians to adjust their charges which exceeded the limits
 and to request that refunds be made to beneficiaries.      It also instmcted carriers to
 revise initial monitoring notices to reflect its position on requesting physicians to adjust
 charges and to make refunds where excessive charges are identified.]


                                               5
ALL MEDICARE cARRrERs HAVE IMPLEMENT D REQUIRED

MONITORING OF LIMITS ON PHYSICIANS CHARGES XN 1991; HOWEVER

SOME DID SO MORE 1NTENSEL%                THAN OTHERS


All 56 Medicare earners repoti having implemented HCFA’S instructions to monitor

phvsician charges in both of the 1991 semi-annual monitoring periods. During the first

m&itonng period (March - June 1991) 55 earners report that 9,122 physicians

received ini~ial noti-ms of charge violations. Carriers reso}ved and closed 85 percent of

these cases as of March 1992 The open =es were still under intensive monitoring.

No cases were referred for punitive action as of that time.


Our review of cases during site visits revealed that carriers’ procedures differ in the

manner of intensive monitoring. This resulted in physicians not being notified on a

timely basis to correct their charging practices and prevented beneficiaries from

receiving prompt refunds. These differences in monitoring procedures were not found

to be related to Carner size. Lacking specific instructions from HCF~ carriers

monitored physicians intensively anywhere horn three to six months after sending a

notice of the initial violation. As a resul$ subsequent notices to physicians of new

violations vary in the degree of carrier efforts in that some notices 1) were sent every

mont~ regardless of the size of the excessive charges; 2) were sent only after three

months showing all accumulated excessive charges; or 3) were not sent if the amount

is considered smalL


For the first monitoring period 52 carriers reported receiving 877 beneficiary

complainantsof limiting charge violations. Of that number, 703, or 80 percenq were

reported to have merk Carriers had resolved 84 percent of the cases as of March

1992


HCFA’S EDUCATIONAL EFFORTS FOCUSED ON PHYSICIANS AND GAVE
VERY LITTLE A~              ONTO BENEFICIARIES

Carner education activities on limiting charges were focused almost exclusively on
physicians in an attempt to reduce limiting charge violations at their source. Sample
carriers provided examples of agendas for provider seminars they conducted, bulletins
they issued descniing Iimiting charges and literature they sent to all physicians. Their
efforts were considered welcome and effective, according to several physician
organizations we contacted.

However, earners did not receive instructions from HCFA to educate beneficiaries on
1991 limiting charges, according to contacts within HCFA and at 12 sample Carne=
Nevertheless, these earners reported that they were responsive to most requests from
beneficiary groups to provide speakers at meetings where limiting charges were among
the topics discussed.




                                             6

E@uwion     QfMdkan       Bcn@k     (EOMB)     Jo­   in 1991 incormdy   Cncoumgd
bcnejii     qxy@ullihlaccssiv echmgCs

Our review of EOMBS for 1991 from 12 sample cam”em showed that beneficiaries
received misleading information on Explanation of Medicare Benefits (EOMB) forms,
regarding the amount they were responsible for paying physicians. These EO?VIBS
overstated the amount physicians could legally charge them, leading beneficiaries to
believe that they were responsible for the full difference between Medicare’s payments
and physicians’ charge% including amounts in excess of limiting charges.

In response to public concerns about this issue, HCFA instructed carriers in early 1992
to delete all reference to patients’ respons]%ilities for physicians’ charges on EOMBS.
However, beneficiaries still were not alerted to excessive charges.

[Note: The HCFA added a message on the back of the EOMB, effective June 1992,
which notes that doctors, generally, may not charge more than 120 percent of the
Medicare approved amount Beneficiaries are advised to contact carriers if they think
their doctors have charged more than the limiting charge. This message also refers
beneficiaries to the 1992 Medicare Handbook for information on limiting charges.
HCFA indicated that by the end of 1992 the EOMB wilI display the physician’s charge
limit and the amount of actual charges. This will enable beneficiaries to know if the
charge exceeded the Medicare limiL

Odzet oqprziaztiow   have pkzyed   a de   h   &&g    benej%iah

Most be~eficianes­ have their own health insurance plans which supplement Medicare
payments. These plans play a role in noti@ing beneficiaries about limiting charge%
according to our review of documents in carrier files and discussions with both carrier
staff and members of beneficiary advocacy groups The information provided by these
plans (though not always accurate) alerts beneficiaries to limiting charge violations and
refers them to their physicians or carriers to resolve questions about excessive charges.

Our contacts with community-based advocacy groups indicate that they have been
taking active roles in assisting beneficiaries with limiting charge problems. These
groups often query carriers about limiting charge violations on behalf of beneficiaries.




                                                7
                      RECOMMENDATIONS



    Our recommendations take into account that during the course of this study HCFA.
    (1) has instructed carriers to request phpicians to make refunds to beneficiaries in
    those cases where charges exceeded Medime limits, (2) has implemented plans to
    revise EOMBS to provide beneficim”es with the necessaxy information to detect
    excessive charges, and (3) has developed instmctions on development and disposition
    of intensively monitored cases. Also, legislation had been introduced in the Congress
    requiring physicians to refund beneficiaries any amounts found to be in excess of
    billing limits. The legislation was not enacted, but has been reintroduced in the
    cument session of Congress.

    We support these efforts, and in addition, recommend    that HCFk

    1.     ~ntact those carriers who never notified physicians to vohmtaxily refund or
           credit beneficiaries based on 1991 violations found through monitorin~ and
           request that they send one noti= to those physicians to make refunds to, or
           credit the accounts o~ those beneficiaries previously identifkxi

.
    z      Support legislation requiring physicians to make refimds to beneficiaries   for
           amounts collected in excess of charge limits

    cob4MENTs

    We received comments horn the Health Care Financing Administration (HCFA) and
    from the Assistant Secretary for Planning and Evaluation (ASPE). Both disagree with
    our recommendation to now contact physicians who had not been requested to make
    refunds to beneficiaries for 1991 charge violations. Their reason is that there is no
    statutory authority requiring physicians to make such refunds

    Also, HCFA believes that it would be inappropriate to take the recommended action
    on a retroactive basis since at the time the violations were identifie~ it did not think
    that it had authority to instinct carriers to request physicians to make refunds. The
    ASPE states that “Congress enacted a different system of limits on balance billing by
    physicians since approximately 1984, called Maximum Alowable Charges or WCS.
    The OIG’S recommendation singles out only those beneficiaries who were overcharged
    by the new ~imiting charge system enacted for 1991.”

    Additionally, HCFA indicates that it has taken action regarding those beneficiaries
    who may have been charged more than the 1991 charge limits. The HCFA notes that
    leaflets describing the Medicare limiting charge were distributed to beneficiaries
    through Social Security Administration district offices, HCFA regional offices, and


                                                8
national beneficiary organizations. These leaflets advise beneficiaries to contact their
Medicare carriers if they believe they had been overcharged for physician sewices in
1991. The HCFA states that it has instructed carriers to assist beneficiaries in
determining whether Violations occurred and in contacting physicians to request
refunds.

OIG RESPONSE

We understand that current law does not require physicians to make refunds and are
only recommending that HCFA issue notices to physicians requesting that they
voluntarily make refunds. We believe that many physicians wiJl do so once notified of
the overcharges. We have clarified our recommendation       to reflect our inten~ which is
to seek fair and equitable treatment for those beneficiaries seticed by those earners
which did not make such requests of physicians.

We recognize and appreciate HCFA’S concern about retrospective actions. However,
we believe that these actions can be taken with a minimum of effort and COSL Our
study confirmed that just over half of the earners always or sometimes requested
refunds or adjustments.    However, there were 26 carriers who never requested refunds
or adjustments of beneficiary accounts ffom a total of 3,170 physicians found in
violation of charge limits That represents less than 20 percent of the total physician
violators. Only these physicians need be sent a letter requesting a refund or an
adjustment of beneficim”es’ accounts. This action would assure equal treatment to all
overcharged beneficiaries.

We co&end       HCFA’S initiative to remedy the unequal treatment beneficiaries
received in obtaining carrier assistance in obtaining refunds for overcharges in 1991.
Nevertheles~ we believe that it falls short of remedying the uneqti     treatment
beneficiaries receive~ the burden for identifying and correcting overcharges should
not be placed on beneficiaries.   Also, this remedy is Iimited to only those beneficiaries
who received and acted upon the information in the leaflet

As the MAAC provision on physician charges was not within the scope of this study,
we are not able to comment on ASPE’S obse~ation regarding overcharges during the
M_/WC program

The HCFA also provided general and technical comments on the draft report which
we have incorporated in this report as appropriate. Comments from ASPE and
HCFA are included in Appendix A




                                              9
                                                    ..              .                             ..                      . ..-.                                                                         .   . .                                                                                                                    .
-..   ---     .




                                                                                                                        APPENDIX                                                                                                              A


                                                                                                             COHKENTS                                                              OH THZS D-                                                 REPORT




                                                                                                                                                                                                                                                                                                                  ----                  . . ..
                                                                                                                                                                                                                               .                                                                                   .     .




                         -.                                                                                                                        .-
                                           *-P.                     -           —-.               @                              ..l




                                     -0.                                                                                                -.                    -,.-                       .   .       .




              ,-----
                       —--+.
                                --
                                                            “ ---
                                                               --       .
                                                                            .    -
                                                                                                                           --
                                                                                                                                        .-         ...                       ..-                 -

                                                                                                                                                                                                                         . -----.--—. ”--
            .-- ..__ .-- —-.— --——
                         ----                        ----                       .—        -
                                                                                                       .-.         ----         ..     -..




                                                                                                                                            —-..                      ---          -



                                                                                                                                                                                                              . . --—- ——-            Q    .—-—
                                                                                                                                                                                                                                              -+.
                                                                                                                                                                                                                                                  &
                                                                                                                                                                                                                                                          _._:.
                                                                                                                                                                                                                                                         --%---             -—-.-   ----
                                                                                                                                                                                                                                                                                                .4
                                                                                                                                                                                                                                                                                                     -
                                                                                                                                                                                                                                                                                                      ---+

                . .         . ..----
                                 .=                                                                                                    ..-. .-                                                                            “-2JA+-
                                                                                                                                                                                                                          - ----+>
                                                                                                                                                                                                                    . .: --+-
                                                                                                                                                                                                                    . . . ..
                                                                                                                                                                                                                                     . .
                                                                                                                                                                                                                                     ‘-
                                                                                                                                                                                                                                   . . .
                                                                                                                                                                                                                                  .. -x.
                                                                                                                                                                                                                                        -’-: -::’~:z-~
                                                  “. . .
                                                                                   ..-.
                                                                                                                                                         -“
                       . ----                                                   . .                                                                                                    ---
                                                                                                                                                                                                                                                    ..                                         --            --           ---- ,.

                                                                                                                                       ..                                              -—. -
                        -.                                     --                    -        -.,                                                                                                                   . ..-.
                        ..                                                                    ..             --.                                                                       -. ---
                                                                                                                                                                     8.
                                                                                                                                                                                         —                                            ..
                                                                                                                                                                     .-

                                                                                                                                                                                                                                                                  ..-        -.            ------- . ..       . . ,---   ------ . . ..-.         -. 4-
                                                                                                                                                                                                 ...-                                 ,-. ..                      ----
                                                                                                                                                                                                                                      ..       ,. --               -------
                                                                                                                                                                                                                                                                  . . .. ...
                                                                                              -.                                                                                                                                            . .                    .,, -“.-
                                . ..                           .-.                                                                     ..                                                                           .,                        - --
                                                                                                                                                                                                                                      .------...
                                                                                                                                                                                                                                             -- .
                                                                                                                                                                                                                                                                  .:-- -.
                                                               . .




                                                                    -.-—                      -                     .      .                                                -.

                                                                                                                                                                                                                                                                                                     --                                             -.




                                                                                                                                                                                                             A-1

  .

                                                                                     Heatth cdrO
                                                                                     Stnanc:ng Adnmistratlon




Data

From      Ac~ing Administrator
                                                     ~A~          _      -+!!.
          office of Inspector General (OIG) Draft Repon:           “tits   on Beneficiary     Fhancial
Subject
          Liability (B&mcc Billing)” OEI-02-92-00130

To        B~      B. MitchcIl                                                            .
          Principal Deputy Inspector    General


               WC reviewed the subject OIG draft repoti concerning Medi=e         carriers’
          implementation of tits   on physician charges to beneficiaries as set forth in the
          Omrxi%us Budget Reconciliation Act of 1989.

                 OIG found that   data supplied    by carriers indicated   that the extent of excessive
          charges by physicians   appeared limited in the fit       two monitoring periods in 1991,
          potentiaI overcharges   represented     less than 1 percent   of total unassigned   submitted
          chargeq or about $11    miI1iom

                OIG &o found that although all Medicare        m-em       implemented   required
          monitoring of limits on physicians’ charges in 1991, some czmiers are monitoring
          more intensively than others. Initiatives among some carnem helped reduce the
          financi&l imnact on beneficiaries.      However, not all beneficiaries are as
          knowledgeable of this issu~ nor are they able to pursue refimds &om physicians who
          have biIIed above the statutory lii”k       OIG also noted that the Health Care
          Financing Administration’s    (HCFA) educational efforts focused on physicians while
          @ving little attetition to beneficiaries

                OIG recommends that HCFA contact those carriers that did not not~
          physicians to refund or credit beneficiaries based on 1991 violations found through
          monitoring    The carriers should send a notice to those physicians to make refunds
          to, or credit the accounts o~ those beneficiaries who were prm”ously identified.
          HCFA disagrees with this recommendation.

                Our specific comments   on the repofi’s recommendation   are attached for your
          conside~tio~   along with general and technical comments.    We appreciate OIG’S
          acknowledgement    of our effo~ to improve implementation    of the limiting charge
          provision. -

                Thank you for the oppo~unity to review and comment on this draft report.
          Please advise us whether you agree with our position on the repofl’s
          recommendation   at your earliest convenience. ?~ -“-
                                                             .:
                                                                ,...‘ ~!

          Attachment
.




                Comments of the Health Care Fmancin~ Administmtion        (H~.A~
                     on Office of Inspector Genexal fOIG\ Ddt       RcPo~:
                           “Limits on Bencficiam Financial liability
                              @a?ance F3i?1inEl? 0EI~2-9Z-00130

    Recommendation

    That HCFA contact those cam”crs who never noticd physici=        to refund or credit
    bcne~ciaries based on 1991 violations found through rnonitotig and request that they
    send one notice to those physicians to make refunds tq or credit the accounts O& those
    beneficiaries who were previously identified

    HCFA Response

    We disayee.    & OIG noted, HCF’A does not have statuto~ authority to require that
    physicians refund excess charges to beneficiaries.  To take the recommended     action on a
    ret~oactive basis would be inappropriate  since at the time these violations were idenfie~
    we did not believe we had the authority to instruct eamiers to reques~ much less requires
    refunds of excessive charges

    HCFA has taken adrninis~rative action that addresses OIG’S mncem about biting
    charge violations that may have occurred in 1991. HCFA developed a leaflet that
    specifically explains the Medicare limiting charge requi,rernen~ and invites beneficiaries
    to contact their fiers     if they believe they have been overcharged for semices furnished
    in 1991. Th*e leaflets were distributed to beneficiaries through Social %euri~
    Administration    di~ri~t offices, HCFA regional offices and 63 national beneficiary
    organizations    Medicare carriers have been instructed to assist beneficiaries b
    determining whether violations occurred in the past and in con~ct.ing physici-       to
    request refunds.

    In view of thecurrentabsenceof statuto~ language requiring refun~        we believe that
    addressing possible 1991 violations in this-way ~ more appropriate   effectiv~ and
    administratively feasl%le than the approach outiincd in OIG’S draft recommendation

    Since the legislation referenced on page eight of the draft report was not enacte~ OIG
    may want to substitute a recommendation     re!ating to the introduction or support of
    legislation requiring physicians to make refunds to beneficiari~    for amounts collected in
    excess of the limiting charge amount.
DEPARTMENT   OF HUL~   & HUMAN SERVICES




                             on
                                          DIG’ZCI                           c
                                          mmI       —                       r
                                                                  �   “>8   <
                                                        --

                                                        —
                                                        -.        --Y
                                                                   rc~ r
                                                                            c




                                                             “the



                                                             no




                                                                       .
                         .




Page   2 -   9qan   B.       Xitcbell




                                                  o               by tile




                                                      .
                                              .           .   .   ---   -.




                                        dO­




                                        .




                                                                        .
